CERTIFICATE OF WORD COUNT AND
WORD LIMITATION COMPLIANCE

The undersigned certifies, as per Supreme Court Rule 33.1(h), that the length of
the accompanying Brief of Amicus Curiae David Boyle in Support of Respondents in
19-635, including the words on the first (and last) page, “March 4, 2020” and
“Respectfully submitted”, but exclusive of “exempt” sections including the listing of
counsel at the end, etc., is 7000 words, since his word-processing program states the
word count is 7000 words. Thank you for your time.
March 4, 2020

Respectfully submitted,
David Boyle
Counsel of Record
P.O. Box 15143
Long Beach, CA 90815
dbo@boyleslaw.org
(734) 904-6132

